              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report

Selected Energy Efficiency and
Renewable Energy Projects




DOE/IG-0689                             May 2005
SELECTED ENERGY EFFICIENCY AND RENEWABLE ENERGY
PROJECTS

TABLE OF
CONTENTS



                Management of Selected Cooperative Agreements


                Details of Finding ............................................ 1

                Recommendations .......................................... 6

                Comments....................................................... 7


                Appendices

                1. Objective, Scope and Methodology............ 8

                2. Prior Reports ............................................ 10

                3. Management Comments.......................... 11
MANAGEMENT OF SELECTED COOPERATIVE AGREEMENTS


Commercial            Energy Efficiency and Renewable Energy (EERE) project
Cooperative           officials were not always sufficiently involved in managing
Agreements            projects funded by cooperative agreements with
                      commercial organizations. Our review of 20 project files
                      revealed that 12 were missing evidence that an initial
                      assessment of the feasibility of the technology had been
                      performed before the award was made, although this
                      assessment is specifically required by Federal regulation.
                      These reviews are important to the success of the project
                      and provide an independent and objective examination of
                      the technical feasibility of an award. In addition, we noted
                      that 14 project files contained no indication that site visits
                      to verify the status of the project were performed as
                      required after the award. As noted by the Department's
                      Guide to Financial Assistance, site visits help Federal
                      managers evaluate programmatic progress and financial
                      and business management aspects of the project, as well as
                      identify other issues that could affect the success of the
                      project.

                      In some cases, we noted that current Federal project
                      officials had not reviewed the project files and had no
                      knowledge of the status of a project or whether needed
                      reviews and visits had been performed. While officials told
                      us that many of the projects had been transferred to them
                      only recently as part of a reorganization designed to
                      improve project management, we noted that the project
                      files in question had been in their possession for periods of
                      up to 10 months.

                      We also observed that two of the projects we reviewed, one
                      agreement to improve aluminum production (aluminum
                      production project) and another to demonstrate the benefit
                      of geothermal electrical power generation (geothermal
                      project) suffered from significant management problems
                      and will not meet their objectives.

                                     Aluminum Production Project

                      EERE project officials did not ensure that accounting and
                      business weaknesses disclosed through audits by the
                      Defense Contract Audit Agency (DCAA) were corrected.
                      The objective of the agreement was to develop an improved
                      process for aluminum production through the design and



________________________________________________________________
Page 1                                            Details of Finding
                      implementation of a pilot plant. The plant was originally
                      projected to cost $2.3 million and be operational in 2 years.
                      Before the cooperative agreement was awarded in 1998,
                      DCAA reported that the recipient's financial management
                      system could not properly accumulate and report costs and
                      that adequate timekeeping procedures were not in place. In
                      addition, DCAA expressed serious concerns about the
                      project's completion because of the recipient's poor
                      financial condition.

                      Shortly after completion of the pre-award audit, EERE
                      finalized the agreement without implementing controls
                      aimed at mitigating the risks associated with the inadequate
                      financial management system and unfavorable financial
                      condition. In 2001, after the original planned completion
                      date had passed, DCAA again reported, during a follow-up
                      audit, that the recipient's financial management system was
                      inadequate and that it was still having significant financial
                      difficulties. In spite of these findings, EERE amended the
                      project several times, increasing the total estimated cost by
                      over $5 million and the schedule by 4 years. Furthermore,
                      the Department continued to provide project funding until
                      2003, when the recipient and its parent company filed for
                      Chapter 11 bankruptcy. Although several patents were
                      issued as a result of the research in improving aluminum
                      production technology, work on this project has ceased and
                      it will not meet its final objective.

                      As part of our test work to determine whether the recipient
                      had properly accumulated and claimed costs, we
                      judgmentally sampled costs incurred during Fiscal
                      Years (FY) 2001 through 2004. Specifically, we reviewed
                      $1,067,073 in project expenditures and found that
                      $359,483, or 34 percent, were questionable. The
                      Department reimbursed 70 percent, or about $252,000, of
                      these questionable expenditures. These questionable or
                      potentially unallowable expenditures included:

                           •   $37,060 in legal costs that were not associated
                               with the project;

                           •   $70,743 in engineering costs associated with the
                               construction of an addition to a building that was
                               not a direct expense of the project;



________________________________________________________________
Page 2                                            Details of Finding
                           •   $87,736 in consulting costs for which there were
                               no detailed invoices to explain the nature of the
                               services provided. Even though we noted that all
                               of the $525,004 in consulting costs in our sample
                               was not supported by contractual agreements, we
                               did not question all of these costs because most of
                               them were supported by invoices with sufficient
                               detail to describe the nature of services provided
                               by the consultants. In addition, the use of many
                               of these consultants was discussed in various
                               technical reviews completed by the Department;

                           •   $142,410 for labor costs that were not supported
                               by certified and approved timesheets. Of this
                               amount, $46,117 was charged in one month for
                               945 hours of labor for one employee whose
                               employment history did not show assignment to
                               the project. We were told that the hours
                               represented time that the employee had spent on
                               the project in prior months; however, there were
                               no timesheets to support this claim. Another
                               $28,815 of the labor cost was charged for two
                               additional employees whose histories did not
                               show an assignment to the project;

                           •   $16,056 in indirect costs such as rent, postage,
                               janitorial services, and office supplies. These
                               costs were questioned because the agreement
                               between the Department and the recipient
                               indicated that no indirect costs would be charged;
                               and,

                           •   $5,478 in unsupported travel, miscellaneous, and
                               administrative costs.

                      While EERE officials conducted a number of in-process
                      reviews designed to evaluate proposals for cost and
                      schedule increases related to activities that fell under the
                      original scope of work, it did not specifically take action to
                      resolve the recipient's business and financial risks. Project
                      officials explained that no special controls were imposed
                      because there was a "clear" Dunn and Bradstreet credit
                      appraisal, the parent company guaranteed to provide project
                      working capital, and indirect costs were excluded. These



________________________________________________________________
Page 3                                            Details of Finding
                            assurances and arrangements, however, proved not to be
                            completely effective and the company continued to suffer
                            from financial problems.

                                                Geothermal Project

                            In the case of the geothermal project, we found that EERE
                            project officials never reviewed the cooperative
                            agreement's continued feasibility from a business
                            perspective. The intent of the agreement was to
                            demonstrate the economic benefit of geothermal electrical
                            power generation. The project was awarded in 1994, with
                            an estimated cost of $41 million, to design, construct, and
                            operate a 12 megawatt geothermal demonstration power
                            plant by 1998. Even though the recipient changed its
                            business partnering arrangement on several occasions and
                            incurred a number of problems and delays over its life span
                            of almost 10 years, EERE project officials never reassessed
                            the business structure of the organization after the project
                            was initially funded.

                            Despite problems with the various partnering arrangements,
                            EERE project officials did not determine whether the
                            various partners had the resources or agreements in place to
                            permit them to secure a geothermal source or market for
                            generated power. Such reviews may have helped disclose
                            the instability of the recipient and prompted EERE to
                            institute additional controls to help ensure that the project
                            would be successful. When EERE eventually conducted an
                            independent technical review of the project in 2003, project
                            officials concluded that the agreement was no longer viable
                            and recommended its termination and partial de-obligation
                            of funds. While EERE officials conceded that there had
                            been insufficient progress over the life of the project, they
                            told us that they did not move to terminate it earlier
                            because the recipient had continually "held out a carrot"
                            and promised Department officials that they would deliver
                            a geothermal demonstration plant. The geothermal project
                            was ultimately canceled due to lack of progress.


Substantial Involvement These problems occurred, in large part, because EERE
and Monitoring          did not devote sufficient attention or resources to managing
                        its cooperative agreements with commercial organizations.
                        EERE officials acknowledged weaknesses in project
                        management and indicated that they had not been allocated

________________________________________________________________
Page 4                                            Details of Finding
                      sufficient resources to monitor and assist in the
                      management of cooperative agreements. They indicated
                      that project management responsibilities had been
                      transferred to the Golden Field Office and Morgantown
                      Site Office in 2003 and that project officials at these two
                      offices are responsible for monitoring up to 50 projects
                      simultaneously. Further, officials told us that with this
                      Federal manager-to-project ratio they cannot provide the
                      monitoring and substantial involvement required to
                      properly manage, control, and direct the performance of all
                      of their cooperative agreements.

                      Additionally, EERE did not have a system to identify
                      high-risk projects, such as the aluminum production and
                      geothermal projects, which would enable them to take
                      timely action to either correct known problems or terminate
                      the agreements. Even given severe resource constraints,
                      had a risk-based system been used, project officials could
                      have focused their attention on those agreements with
                      known weaknesses rather than all agreements under their
                      purview. As noted by the Department's Guide to Financial
                      Assistance, Federal project officials should quickly identify
                      high-risk projects and become substantially involved in
                      their management and performance. In so doing, project
                      officials can take steps to better monitor financial and
                      business information on problem projects. To its credit,
                      EERE developed a draft outline dated February 2005,
                      which describes its plan to perform risk analyses in order to
                      focus its project management resources. EERE also
                      indicated that it is developing a management information
                      system that will, among other things, be used to track high-
                      risk projects.


Opportunities for     Lack of oversight and involvement by EERE project
Improvement           officials substantially increased the risk that issues
                      affecting project completion will not be identified in a
                      timely manner. For the two problem projects cited in our
                      report, the Department expended a number of years of
                      effort and valuable research funding that could have been
                      applied to other viable projects. For example, after 6 years
                      and expenditures by the Department totaling $3.7 million,
                      the proposed aluminum production technology could not be
                      demonstrated at the pilot plant scale.




________________________________________________________________
Page 5                                            Details of Finding
                     For the geothermal project, closer attention by project
                     officials may have enabled the Department to recognize
                     earlier, the risks to completion and take steps to minimize
                     cost and schedule increases. EERE provided
                     reimbursements totaling approximately $825,000 for
                     activities such as environmental assessments, permitting,
                     and project planning. As of 2003, almost 10 years after it
                     was awarded, no progress toward constructing a
                     demonstration power plant had been made and EERE
                     terminated the effort. In total, $4.5 million was spent on
                     these two projects. Without greater involvement, similar
                     failures and unnecessary expenditures may continue.

                     In the case of other projects for which oversight was
                     insufficient, the risk of failure is substantially increased.
                     Federal managers did not take advantage of important
                     management tools, such as technical merit reviews and site
                     visits, to help identify problems that required resolution or
                     increased monitoring and oversight. Lack of these tools,
                     when coupled with the lack of familiarity and high
                     project-to-manager ratios, substantially increases the risk
                     that scarce research funds will be expended on projects that
                     do not provide a measurable result.


RECOMMENDATIONS      As part of its efforts to improve project management
                     practices, we recommend that the Assistant Secretary for
                     Energy Efficiency and Renewable Energy require that
                     project officials:

                        1. Review resource allocations and adjust Federal
                           project manager-to-cooperative agreement ratios as
                           necessary to ensure that projects receive adequate
                           monitoring and oversight;

                        2. Monitor all projects in accordance with established
                           requirements and identify those projects with
                           known weaknesses affecting their financial and
                           business feasibility as high-risk projects; and,

                        3. Focus attention on high-risk projects by providing
                           timely action to:
                                a. review recipients' financial and business
                                   conditions;



________________________________________________________________
Page 6                                            Recommendations
                                b. take prompt action to correct identified
                                   financial or other weaknesses, including
                                   those identified by DCAA; and,
                                c. review expenditures to ensure that
                                   questionable or potentially unallowable
                                   costs are not reimbursed.


MANAGEMENT           The Office of Energy Efficiency and Renewable Energy
REACTION             concurred in full with the report's findings and
                     recommendations and has identified corrective actions
                     aimed at improving its project management practices.
                     Specifically, EERE indicated that it has added nearly 100
                     Federal employees dedicated to project oversight and will
                     determine the feasibility and methodology for addressing
                     project risk. In addition, EERE indicated that it will focus
                     attention on high-risk projects by assessing recipient
                     financial and business conditions and considering DCAA
                     audit findings and recommendations. EERE also indicated
                     that it will request cost-incurred audits of those awards
                     made to recipients that meet certain dollar thresholds or
                     risk criteria to detect questionable or unallowable costs.
                     Management comments are included in Appendix 3.


AUDITOR COMMENTS     Management comments are fully responsive to the report's
                     recommendations.




________________________________________________________________
Page 7                                                  Comments
Appendix 1

OBJECTIVE             To determine whether selected EERE cooperative
                      agreements with commercial organizations were effectively
                      managed.


SCOPE                 The audit was performed between March 2004 and
                      April 2005 at the Department's Project Management
                      Centers in Golden, CO, and Morgantown, WV, and at
                      Department Headquarters in Washington, D.C. We
                      reviewed EERE projects under cooperative agreements
                      awarded to commercial entities with total project costs
                      between $5 million and $30 million.

                      For the project expenditure portion of this review, we
                      initially limited our scope to payments made in FYs 2003
                      and 2004. There were 9 invoices totaling $1,262,879 in
                      this universe of which $1,133,408 was reimbursed. We
                      further limited this scope to a judgmental sample of project
                      expenditures totaling $996,330. While at the recipient's
                      site, we expanded our scope to include engineering costs
                      totaling $70,743 contained in 8 additional invoices.


METHODOLOGY           To accomplish our audit objective, we:

                           •   Reviewed prior Office of Inspector General and
                               Government Accountability Office reports to
                               identify concerns associated with projects
                               awarded under cooperative agreement;

                           •   Reviewed reports issued by the National
                               Academy of Public Administration to identify
                               project management concerns within the Office of
                               Energy Efficiency and Renewable Energy;

                           •   Reviewed applicable Departmental policy, orders,
                               guidance and manuals, as well as Code of Federal
                               Regulations (CFR) on requirements for financial
                               assistance and cost allowability;

                           •   Selected a judgmental sample of 20 active
                               cooperative agreement projects with commercial
                               organizations;




________________________________________________________________
Page 8                              Objective, Scope, and Methodology
Appendix 1 (continued)


                           •   Reviewed project specific Defense Contracting
                               Audit Agency reports to identify findings and
                               recommendations made on recipient financial
                               capabilities, accounting systems, and indirect cost
                               and labor rates;

                           •   Performed a detailed review of each project file
                               checking for compliance with requirements of
                               10 CFR 600 and analyzed them for anomalies
                               associated with the technical progression of the
                               project;

                           •   Held meetings with project officials and program
                               managers responsible for the selected projects to
                               discuss project goals and objectives, status, and
                               noted problems as well as discuss project
                               management roles and responsibilities; and,

                           •   Conducted a project expenditure review at one
                               recipient location to determine whether costs
                               charged to the Department were allowable and
                               supportable.

                      The audit was conducted in accordance with generally
                      accepted Government auditing standards for performance
                      audits and included tests of internal controls and
                      compliance with laws and regulations to the extent
                      necessary to satisfy the audit objective. Because our
                      review was limited, it would not necessarily have disclosed
                      all internal control deficiencies that may have existed at the
                      time of our audit. Since computer-processed data was not
                      the primary support to meet our objective, we performed a
                      limited assessment of data reliability. We also assessed the
                      Department's compliance with the Government
                      Performance and Results Act of 1994. We found that the
                      Department's Performance and Accountability Report for
                      FY 2004 contained outcome-oriented measures for EERE
                      to complete research and technology development targets.

                      Management officials waived the exit conference.




________________________________________________________________
Page 9                              Objective, Scope, and Methodology
Appendix 2



                                   PRIOR REPORTS


•   The McNeil Biomass Project (DOE/OIG-0630, December 2003). The Department of
    Energy (Department) was directed by Congress to award financial assistance to the
    McNeil Biomass Project to assist them in achieving its goal of demonstrating
    commercial-scale biomass gasification. In this report, the Office of Inspector General
    (OIG) found that the Department continued to fund this project even though there was
    little or no progress; program officials did not closely monitor the project; and
    officials did not ensure that objectives and milestones were appropriate. DOE
    invested approximately $37 million in this project in financial support. Further, DOE
    continued to provide reimbursement to this project up until the recipient filed Chapter
    11 bankruptcy.

•   Financial Assistance for Biomass-to-Ethanol Projects (DOE/IG-0513, July 2001).
    The Department awarded financial assistance to two firms under the biomass
    program, which had a goal to build a full-scale commercial biomass production
    facility. In this report, the OIG found that the Department did not meet its program
    goal to have a full-scale commercial biomass production facility; the biomass
    program faced technological and financial risk; proposals were not solicited
    competitively; the Department was delayed in meeting its commitment to reduce oil
    imports; and, cost share for both projects increased. The Department invested
    approximately $15 million in these projects in financial assistance and construction of
    the two facilities had not started as of July 2001. Because of appropriations action,
    management latitude in managing these projects was limited.




________________________________________________________________
Page 10                                              Prior Reports
Appendix 3




________________________________________________________________
Page 11                                     Management Comments
Appendix 3 (continued)




________________________________________________________________
Page 12                                     Management Comments
                                                             IG Report No. DOE/IG-0689

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
